No.

IS
i I
Hma

f£ 3

1USCA5ffl9“20717

a

■supreme Court, U.SFILED

IN THE

MAR 1 9 2021

SUPREME COURT OF THE UNITED STATE&

Michael Geoffrey Peters

OFFICE OF THP n ecu

— PETITIONER

(Your Name)
vs.

Bobby Lumpkin

— RESPONDENT(S)

ON PETITION FOR A WRIT OF CERTIORARI TO

United States Fifth Circuit
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI

Michael Geoffrey Peters
(Your Name)
1200 FM 655
(Address)
Rosharon, Texas
(City, State, Zip Code)

281-595-3413
(Phone Number)

77583

QUESTION(S) PRESENTED
1.

Whether or not I am guilty on Count No.l of the indictment?

2.

Whether or not I am guilty of Count No.3 of the indictment?

3.

Whether of not the jury was instructedon the element of the offense?

4.

Whether of not the appointed defense counsel was ineffective assitance of counsel?

5.

Whether of

notI was allowed to present my own defense?

6•

Whether or

notI was allowed defense witnesses?

7.

Whether or

notI was allowed any discovery?

8.

Whether or

notI was allowed to make my own jury selections?

9.

Whether or not the indictment lacked subject-matter jurisdiction?

10. Whether or not my counsel and the trialjjudge withheld the ("Brady")
Evidence?
11. Whether of not I was entitled to a fair trial in a fair tribunal?
12. Whether

or not I

was allowed an open and public trial?

13. Whether

or not I

was allowed to submit defense evidence?

14. Whether or not it was legal for the Court Reporters to delete the
outburst from the official trial transcripts?
15. Whether or not the trialjudge should have recused herself?
16. Whether

or not I

should have been granted a Change of Venue?

17. Whether of not the trial was rigged to deny allmy constitutional
rights and dupe an uninformed jury into making awrongful convic­
tion to cover-up for the Corporations or Texas Children's Hospit­
al and Baylor College of Medicine because the were in collusion
with Gov. Rick Perry and funding his bid to become United States
President?
18. Were the Corporations of Baylor and Texas Children's being covered-up for their crimes and liabilities by Texas State official's
during and throughout the trial and the Lower courts?
19. Were Texas State judge's involved in the cover-up for State col­
lusion and racketeering crimes?
20. Was I being conspired against throughout the Lower courts to have
me silenced for exposing State Racketeering crimes and Collusion
by Gov. Rick Perry and said Corporations?

LIST OF PARTIES

WA11

ies appear in the caption of the case on the cover page.

£<rAll parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is the subject of this
petition is as follows:
Dr. Zoaan Eckert Dreyer
Texas Childrens Hospital
6621 Fannin Street
Houston, Texas 77030

Jeffery G. Chappell
Computer Forensics Agent
4141 N. Sam Houston Parkway
Houston, Texas 77032

Brett W. Ligon
District Attorney
9th Judicial District
207 W.Phollips,2nd Floor
Conroe, Texas 77301

Ranae Ward
Costodain of Records
Montgomery County Sheriff's Dept.
1 Criminal Justice Drive
Conroe, Texas 77301
See Attached

RELATED CASES
[Predicate Acts] Related Civil Cases are as follows:
FIFTH CIRCUIT
20-40547, 20-40583, 19-20654, 20-20481, 20-20588, 20-40180, 20-2020612,
20-40446, 21-40483, 21-40481, 20-8394, 20-8406 Supreme Court, 20-40473,
U.S. SOUTHREN (Houston.)
3:21-CV-0124, 3:21-CV-0130, 3:21-CV-0119, 3:21-cv-14, H-20-3581, 4:21cv-02098, 3:21-CV-088, 4:21-cv-01972, 3:21-cv-00166, 4:21-CV-02147,
4:21-cv-02134, 4:21-CV-02181

ATTACHMENT FOR LIST OF PARTIES
CONTINUED
Brett Crisp
Tarrant County Sheriff’s Dept.
200 Taylor Street
Fort Worth, Texas 76102
Noe Fernandez
Texas Dept.ofPublic Safety
2012 Veterans Blvd.
Del Rio, Texas 78840
Victor Morris
Texas Dept, of Public Safety
2012 veterans Blvd.
Del Rio, Texas 78840
Aaron Willoughby
Texas Game Warden
2112 Veterans Blvd.
Del Rio, Texas 78840
Mary Gilbert
C/0 Montgomery County District Attorney's Office
207 W. Phippips Drive, 2nd FI.
Conroe, Texas 77301
Fingerprint Examiner
C/0 MCDAO
207 W. Phillips Drive,2nd Fl.
Conroe, Texas 77301
John Stephenson
C/O MCDAO
207 W. Phillips Drive, 2nd Fl.
Conroe, Texas 77301
Tracy Allen Gilbert
C/0 MCDAO
207 W. Phillip Drive, 2nd Fl.
Conroe, Texas 77301
Anthony Duckworth (Counsel)
SBOT No. 24004625
Duckworth & Ray, LLP
902 San Jacinto
Conroe, Texas 77301
Jeff Hohl (Prosecutor)
C/O MCDAO
207 W. Phillips Drive,2nd Fl.
Conroe, Texas 77301

CONTINUED LIST OF PARTIES
William Harrison (Appelate Counsel)
215 Simonton Street
Conroe, Texas, 77301
Lisa B.MiChalk (TrialJudge)
221 District Court
207 W.Phillips Drive
Conroe, Texas 77301

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
the petition and is
[ ] reported at unknown
; or,

1^1 to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the United States district court appears at Appendix
the petition and is
[ ] reported at unknown
; or,

mi. to

[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[XjXpor cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix "^M to the petition and is
unknown
; or,
[ ^reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
The opinion of the _Ninth District Court of Appeals
court
"B
appears at Appendix
— to the petition and is
[ ] reported at
; or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
1.

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
STATEMENT OF THE CASE
REASONS FOR GRANTING THE WRIT
CONCLUSION

INDEX TO APPENDICES
APPENDIX A Trial Courts decision

APPENDIX B Texas Courtof Criminal Appeals
APPENDIX C United States Southren District

APPENDIX D

Fifth Circuit Courtof Appeals

APPENDIX E

State's Appealate Brief

APPENDIX F

Defense Counsel's Appealant’s Brief

INDER OF AUTHORITIES
CASES

PAGES

Aetna Life Ins. Co. v. Lavoie, 475 U.S. 813, 825, 106
S.Ct. 1580, 89 L. Ed.2d 823 (1986)

11

Boyd v. Estelle, 661 F.2d 388, 390 (5th Cir. 1981) :

18

Bracy v. Ryan, 706 F.3d 1021 (CA 9 2013)

10

Brown v. Andrews, 180 F.3d 403 (CA 2 1999)

15

Bryant v. Scott, 28 F. 3d 1411, 1419 (5th Cir. 1994)

18

Carella v. California, 491 U.S. 263 265, 109 S. Ct. 2419
2420, 105 L. Ed 2d 218 (1999)(per curiam)

8

Carpenton, 556 U.S. at 883-84, 129 S. Ct. 2252

11

Chamber v. Mississippi, 410 U.S. 284, 35 L. Ed 2d 297,
93 S.Ct. 1038 (1973)

8

Ex Parte Weinstein, 421 S.W. 3d 656, 665 (Tex. Crim.
App. 2014)

9.

.

Ex Parte Wingfield, 162 Tex. Crim. 112 282 S.W. 2d 219
(1955)

18

Geders v. United states, 425 U.S. 80, 96 S. Ct.
1330 (1976)

16

Giglio v. United states, 405 U.S. 150, 92 S.Ct. 763 (1972)

1

Gomez v. Beto, 462 F. 2d 595/ 597 (5th Cir. 1972)

18

House v. Bell, 547 U.S. 518

7,'~1 '7

7

Hardin v. Estelle, 484 F. 2d 944 (5th Cir. 1973)

18

Hurles v. Ryan, 706 F. 3d 1021 (CA 9 2013)

10

Jones v. Cain, 600 F. 3d 527, 536 (5th Cir. 2010)

8

Lunberry v. Hornbeck, 605 F. 3d 754 (CA 9 2010)

14

Me Guiggin v. Parkings, 569 U.S. 135 L. Ed 2d 1019 (2013)

7

Nealy v. Cabana, 764 F. 2d 1173, 1177 (5th Cir. 1994)

18

McMann v. Richardson, 397 U.S. 759, 771, n.14, 90 S. Ct.
1441, 1449, n.14, 25 L. Ed 2d 763 (1970)
Oliver, 333 U.S. 257, 68 S. Ct. 499, 92 L. Ed 682 (1948)

16
15

Redman

8

Russell v. United States, 368 U.S. 749, 764 (1962)

8

Schlup v. Delo, 513 U.S. 298

7

Soffar v. Dreke, 368 F. 441, 473-74 (5th Cir. 2004)

18

Strickland v. Washington, 466 U.S. 80 L.Ed 2d 674, 104
S.' Ct. 2052 (1984)

16

U.S. Ex Rel. McCall v. O’Grady, 908 F. 2d 170 (CA 7 1990)

17

United States v. Faulkner, F. 3d 745, 768 (5th Cir. 1994)

8

United States v. gracia, F. 2d 556, 561 (5th Cir. 1993)

8

United States v. Givens, 265 F. 2d 218 (9th Cir. 1959)

8

United States v. Jenkins-Watts, 574 F. 3d 940 (8th Cir. 2009) 17
United States v.Rodegues, 360 F. 3d 949, 958 (9th Cir. 2004)

8

United States v. tucker, 716 F. 2d 576, 585-87 (9th Cir.
1983)

19

United States v.Salazar, 958 F. 2d 1285, 1290-91 (5th Cir.
1992)

8

United States v. Shabban, 612 F. 3d 693, 698 (D.C. 2010)

19

United States v. Samanieqo,. 532 F. 3d 458, 463-64 (5th Cir.)
United States v. Youla, 241 F. 3d 296, 300 (3rd Cir. 2001)

19
19

United States v.Williamson, 185 F. 3d 458, 463-64 (5th Cir.
2013)

19

Waller v. Georgis, 467 U.S. 39, 48 104 S. Ct. 2210 (1984)

15

William v. United States, 265 F. 2d 214, 218 (9th Cir. 1959)

8

Winship, 397 U.S. 358, 364, 90 S. Ct. 1068, 1074, 25 L. Ed
2d 368 (1970)

8

Withrox, 421 U.S. at 47, 95 S.Ct. 1456

11

JURISDICTION
[ ] For cases from federal coarts:
The date on which the United States Court of Appeals decided my case
was [ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: ____________
, and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including______
(date) on
(date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).

[fl For cases from state courts:
The date on which the highest state court decidgl nry case was 01/23/2017
A copy of that decision appears at Appendix
' A"
[ ] A timely petition for rehearing was thereafter denied on the following date:
______________________ , and a copy of the order denying rehearing
appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including____
(date) on
(date) in
Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1257(a).

REASONS FOR GRANTING THE PETITION
Supreme Court Rule No.11; [Imperative Public Importance]. This case
is a politicalcase, wherein the defendant was exposing Corporate cri­
mes of the State's witness, that the State wanted tocover-up, because
Gov. RickPerry was being funded by these Corporations for United
States President who I was exposing on YouTube Media. Inorder to have
me silenced a one-sided, closed door trial was put on by the Plantiff and his courthouse friends. The Texas goverment was not acting
as the goverment of the people but rather in the interests of the
Texas Republican Party in protecting their presidential canidate.
The trial was totally one-sided wherein I was denied effective cou­
nsel in a plot to dupe an unaware jury intomaking an uninfromed dec­
ision; being let tomake a guilty plea, they did.
Under Supreme Court Rule 10; The Lower courts all stick together,
as they consist of the Texas Republican Party member's who have
formed an alliance to turn a blind eye to justice in this case and.r:
at all costs deprive me of my constitutional rights to defense,,
defense witnesses, discovery, filing motions effectively, bail, coun­
sel, evidence submittals, fair tribunal etc.to impose their own brand
of justice on a State Whistleblower who was exposing their collusion
and racketeering crirmes on Public Media.
The total.'depri'vations of all my constitutional rights tofdefense
has totally been ignored by all the Lower courts who are involved
in the State's cover-ups,stemming fromthe State's witnesses crimes
the Plaintiff covered-up for in 2012 at my Annulment in Cause No.
12-08-09259 and continuing through the Fifth Circuit wherein Judge
Gregg Costa fromHouston, Texas wherein these Corporations have Head­
quarter's. He is from Houston, Texas appointed by Barrock Obama. The
hub for this Chain Conspiracy is in Houston at the U.S. Southren
District Court, wherein sanctions and the three-strike'sorule was
ordered against me to make it harder for me to present the evidence
of their cover-ups.
The evidence clearly shows that Baylor employee; Dr./ Director,
Zoann Eckert Dreyer's crimes were covered-up in every Lower court.
She testified at both my Annulment before the Plaintiff and then be­
came the State's witness,("Quid Pro^Quo") to aid the plaintiff, who'd
just covered-upher crimes at the Annulment and his friends did the
, same at the trial for Retaliation, denying for the second time my
defense, defense evidence, defense witnesses, and forced me to have-,
their counsel who was part of their conspiracy tocover-up the State's
witnesses crimes,to once again protect these corporations who were
funding Gov. Rick Perry; making this case a political cover-up for
RICO Crimes and Collusion.
The fact that I am ["Actually Innocent"] proves that the Texas Rupublican Party,dominates the Texas COurt System and uses it to bene­
fit their own political agendas and having those whistleblowers in­
tentionally wrongfully imprisoned.

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

I was-'d:enied~all~Cohst±tUtionaT:rights to defense, witnesses, due process,
investigation, discovery, evidence submittals, counsel, fair tribunal,
impartial jury in violation of my:
First Amendment, Fifth Amendment, Sixth Amendmant, Eighth Amendmant and
Fourteenth Amendment.
My trial was a Political trial, put on by loyal Republicans silencing me
from exposing Govenor Rick Perry who was their canidate for President of
the United states, I was exercising my Freedom of.Speech rights expos­
ing him for Racketeering and Collusion crimes, Iti offering criminal and
liability protections in exchange for state politicalfundings.
I was silenced thouugh a One-sided trial, deprived of all Constitutional
rights to defense and through years of Republican Partyi'.Loyalist I have
been kept from seekingjustice. Through the State's Prison System I
have been suppressed and oppressed for the past seven years (7). They
stold my law books, media correspondences and attorney. They haves -stolen
evidence of State and Corporate crimes from reaching the Harris County
District Attorney's Office. When years later it did arrive, they called
the Texas Attorney General, Ken Paxton, who inturn called me here at the
Stringfellow Prison on March 31, 2021, asking me to drop the complaint.
When I refused, I was given another year set-off for parole.
United States Supreme Court Cases involved are as follows:
United
United
United
United
United
United
United
United
United
United

States
states
States
States
States
States
States
States
States
States

v. Ex Rel. McCall
v. Gracia
vs. Givens
vs. Jenkins-Watts
vs. Rodegues
vs.Tucker
vs. Shabban
vs. Samaniego
vs. Youla
vs. Williamson

Strickland vs. Washington
The Supreme Court precedents recognize that the whole is often greater
than the sum of it's parts - especially when the parts are viewed in
isolation. (Thomas J. joined by Roberts, Ch, J and Kennedy.,. Breyer,
Alito, Kagan and Gorsuch, JJ (199 L. Ed 2d 455). Pringle, 540 U.S.
at 372 n.2, 124 S. Ct. 795, 157 L. Ed 2d 769 wasmistaken; See,in
light of our (199 L. Ed 2d466) precedents, (2018 U.S. LEXIS 19)
bid (L. Ed HRS(5) The totality of the circumstances "requires courts
to consider the wholepicture." Cortez, supra at 417, 101 S. Ct. 690

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVE CONTINUED
L. Ed 2d 621, Our orecedents recognize that the whole is often greater
than the sum of it’s parts.
Charles Edward Hardin v. W.J. Estelle, Jr • t 484 F. 2d 944 1973 U.S. App.
LEXIS 7842 (Sept. 19, 1973) In March 29, 1973 U.S. Dist. Court Judge D
W Suttle directed that Hardin's petition be granted for the denial of
compulsory process for his witnesses. The State of Texas adopted a
rule for com pulsory process for witnesses which should prevent any
likelihood o E a recurrance of this situation,now before (484 F. 2d 945) .
However :this:.is r.nbt rthe: case and the State of Texas continues to deny
their prisoners defense witnesses to suit their own agendas for politi­
cal reasons or to secure a conviction when otherwise the state has in­
sufficient evidence. This behavior must stop. The Supreme Court must
take stronger measures to force Texas courts into allowing it's pri­
soner's due process and compulsory process of defense witnesses. I have
just spent seven (7) years in prison, because they knew I would be fight­
ing a loosing battle for those seven (7) years while they cover-up
State Collusion and Racketeering crimes for Coroprate gains and poli­
tical fundings.
The State of Texas CANNOT BE RELIED UPON to allow their prisoner's Con­
stitutional rights, exspecially when they have their own agenda's to
cover-up their own crimes. The citizens of Texas are being forced into
thier prisons for the benefit of the state. It's a win, win situation
for them. This is why once the federal goverment banded the prisons
from forcing their inmates into agriculture labors,they adopted more
prisoners to compensate and began charging the federal goverment for
useless programs instead, hence the need to incarcerate more people
as well as those they want to silence for political reasons...
Judge Gilbert, the plaintiff, took those sentencesout of context and
made his own "compilation and summary11 essentually fabercating his
own evidence and decieved an unaware jury into believing their One-sided
trial. The innocent speak-out,we want protections from this type to
imprisonment in order to silence a mans fredom of speech whether expos­
ing political corruption, ie blowing the whistle or complaining about
other state injustices. I fear the reprisals of the State of Texas, who
are known for their brand of justice by so called ("Good Old Boys").
EVIDENTARY HEARINGS
Ordinarily the Supreme Court cloak's the state court's factual finding
in a presumption of correctness; 28 U.S.C. Sec. 2254(e)(1). However
we afford such deference only if the state court's fact-finding process
survives our intrinsic review pursuant to AEDPA's "unreasonable det­
ermination clause." See Taylor, 366 F. 3d at 1000. For example; a state
court makes evidentiary findings without holding a hearing and giving
petitioner an oppertunity to present evidence, (as in my case wherein
there was no hearing), such findings clearly result in an unreasonable
determination of the facts. See also Perez v. Rosario, 459 F. 3d 943,
950 (706 F. 3d 1039)(9th Cir. 2006)(amended)
”
A petitioner who has previsouly sought and been denied an evidentiary
hearing has not failed to develope the factual basis of his claim. Id.
(citing 28 U.S.C. Sec 2254(e)(2).

STATEMENT OF THE CASE
1. Count No•1 is Retaliation by Phone Harassment. The Texas Penal Code
for Retaliation states as follows:
Tex. Pen. Code Section 36.06(a)(1)(A) contains eight diffrent ele­
ments; (1) the defendant; (2) intentionally or knowingly; (3) thr­
eatens to harm; (4) another person; (5) by an unlawful act; (6) in
retaliation for or on account of; (7) the service of another or the
status of another; as a public servant,witness,,or prospective wirness or informant.
Phone Harassment:
Harassment under Tex.Pen. Code Section 42.07(a)(4) is defind as,[a]
person commits an offense if, with intent to harass, annoy, alarm,
abuse, torment, or embarrass another, the person, (4) causes the
telephone of another to ring repeatedly of makes repeated telephone
communications anonymously or in a manner reasonably likely to har­
ass, annoy, alarm, abuse, torment, embarass, or offend another."
See [Exhibit No.57, 57B] The indictment for Count No.l reads as
follows: "The defendant on or about June 14, 2014 and continuing
through July 26, 2014 and before the presentment of this indict­
ment in the County and State aforesaid, [did then and there in­
tentionally or knowingly harm Tracy A. Gilbert, make repeted tele­
phone communications to Tracy A. Gilbert in a manner reasonably
likely to harass and annoy and alarm and abuse and torment and em­
barrass Tracy A. Gilbert, in retaliation for or on account of his
services or status of Tracy A. Gilbert as a public servant."
[NOTE] That the element of (Annoymously) has been deleted from the
elements of the offense in the Tex. Pen. Code or otherwise mis­
represented to the members of the jury, who were never informed of
it. The State makes it clear as well as the constitution, that ev­
ery element of the offense must be proven beyond a reasonable doubt.
See [Exhibit No. 115] Wherein the Prosecutor states: ("We have to
prove this — elements of this statute up here"). Also [Exhibit No.
80] Wherein he states: ("As a State, we have to prove all the ele­
ments.") Next See [Exhibit No.114] Stating: ("Retaliation, some of
the elements are -- that have been alleged, it says: With intent to
harass, annoy, alarm, abuse or torment or embarrass the complaintant, making repeated telephone communications in a manner reasonably
likely to harass, annoy and alarm and abuse and torment and embara­
ss the complaintant. And it tracks the statute. And that's what Re­
taliation is. I kind of wanted to let you know what the charge is."
Hence the jury was never informed or all the elements of the offense
and hence the offense could not be proven beyond a reasonable doubt
them. [Exhibits No.97-99] are photo's the Plaintiff took of his Call­
er I.D. and prove absolutely knowing. The only phone records ever
entered into evidence by the State were my cell phone records seen
in [Exhibit Nos. 85-87], but only 85 & 86 are used as the phone mes­
sages in No.87, were acquitted.
1.

This evidence clearly shows that only two (2) phone calls were ever
made from my cell phone to the plaintiff's home. The first wason
June 14,2014 and the second call was made on July 26,2014,hence the
indictment is misleading the jury into believing calls were made be­
tween those dates. But that is the Conspirator1splan todecieve them
wherein they can be led to make a wrongful conviction.
So the first thing before the proceedings get underway, Jeff Holh
the prosecutor states: [Regard to the additional phone call evidence,
I just wanted to make sure everyone is aware. The day I recieved that
information, I relayed it to Defense. It was'nt that, you know, we
had it and just never gave it to him, it was last week.
[NOTE] Defense counsel make no objections in the court to refute that
he'd been given that information. See [Exhibit No.82] However what
he does say is" ("I have subpoenaed the records for Mr. Peters cell
phone for the time in question as well as plus back an additional
six months just being out of an abundance of caution. I was only allow­
ed to do that Thursday of last week.!?). Mr. Duckworth had up to three
and a half (3-1/2) months to obtain those addtional phone call re­
cords,but chose to do sothe day before the trial,proving he was ineffewctive assistance of counsel,but again that was part of the plot.
FIRST CALL
See [Exhibit No.66] Mary Gilbert, the plaintiff's wife is used to"lie
for him, but she is not very good at it. She states: ("It's was a
mans voice and he said, is Tracy home" And I said, No, he's not, may
I take a message? And at first he said, no, that's alright and then
he said, well actually yes. Tell him that it's Michael Peters and I
would like to know how much money he was paid by thehospital to
impliment the ruling that he gave -- something to that effect.") Mean­
ing she did not remember what was said
• ♦ • •

SECOND CALL [Exhibit No.65] Tracy Gilbert stated concerning the sec­
ond call: ("I can't say verbatim,but essentially. Is Tracy there"
said. This is he. This is Mr. Peters or Michael Peters and as soon as
he identified himself, I got loud and stern and I said. This is my
home, do not ever call here again and I hung-up.")
One thing is clear and that is I stated my name both times and that
is why Asst. D.A. Phil Grant deleted the element of (anonymously)
from the indictment, as if the jury knew the calls were not made anon­
ymously, they would never have convicted me as that element of the
offense was not proven. Two (2) call fourty-two (42) days apart does
not equate to phone harassment, as the calls were not made repeatdly or
in a manner likely to harass, annoy,torment, embarrass etc.
The conspirator’s plan would only work if they withheld the additional
phone call evidence, that's why my appointed counsel acted like he did
not recieve a copy from the Prosecutor. All the conspirator's were
friends and worked together every day. Judge MiChalk was in on the act.
See [Exhibit No.83] She states: ("Hold on a second, my response to
you is that I thought about this over the weekend. I have reviewed
the file. And I am not going to let you get into the other calls,
except if we reach punishment, then it might be a proper punishment
thing. But I'ih going you to around the date in question in the indie2.

merit. So I'm going to limit you. So, I'm going to instruct you to in­
struct to instruct your witnesses
this is in the abundance of
caution. [NOTE] Defense counsel said the same thing; ("Out of the abun­
dance of caution as if it were a trigger word between conspirators.
You might remember I was not allowed any defense witnesses, hence there
was nobody to caution!
She gose on to state: ("And I don't think it's fair tothe Defendants
the Defendant to bring up at the eleventh hour additional calls.
Now, you know if the door is opened or if questions are asked that elicit
: that or it's raised by the evidence or something,then I am probably
Sgoing to allow it.")
That door was kept securely closed throughout the trial to hide those
records. She is letting everyone know that she [viewed the file] therfore she knew beyond any reasonable doubt that there wasno other;phone
call evidence........
Mary Gilbert's ‘first lie is seen in [Exhibit No.67] Stating: ("He called
back actually twice that morning after I told him my husband was not '
home. ") The trouble with this lie was that we had those phone records
for June 14, 2014. See lies again in [Exhibit No.68] Stating: ("I did
recognize the number as one that had called our house many times in
the past. And again in [Exhibit No. 69] Stating: ("it's occured to me
that I had seen that name and number come up on my phone many times over
the past months, it not longer.
See [Exhibit No.67] Mary actually tells the truth on accident « • • • Line
No•1, She states: ("He called back actually twice that morning after I
told him my husband was not home. "I did not answer the phone, and then
he also called I think about a month lather, and my husband spoke with
himonce and then he left two messages on our answering machine at home.")
Mary is notsaying here there were severalcalls over the past months if
not longer,but only that there werethe two (2) calls. The same two (2)
that either her or her husband evern gave any descreption to........
See [Exhibit No.70] You can see Mary gets very confused and lies twice
tothe Prosecutor,but on Line No.20 she tells a greater'truth and admiits
she was talking to Asst.D.A. Phil Grant at her home the night before
Phil Grant deleted the element of the offense (anonymously)
the trial
from the offense in Count No.l, he also added his own commits to line
four (4) of the indictment. Seen in [Exhibit No.57-B] Wherein Phil Grant
states: ("Judge Gilbert has three children"). He wanted the jury to know
the the plaintiff was a (Judge) and (Family man)., to put him in a bet­
ter light with the jury members. Seen in [Exhibt No.64]Having to do with
Count No.3, Lines 8-13] Gilbert's states he gave his ("Compilation of
the evidence toPhil Grant") his trusted friend who was at his house coach­
ing his wife to lie about non-exsistant phone calls to the jury the night
before the trial........ Mary even confesses in [Exhibit No.71,Lines 7-8]
Wherein she states: ("The only ones (calls) that I've seen are the ones
"). NOBODY waspointing out any
that werepointed out to me today
calls to her in the courtroom...
3.

Seen in [Exhibit No.407) The State informs the United States Southren
District Court,Houston Division in my Habeas Corpus 2254: ("While the
records showed that Peters did not call the Gilbert's numerous times
over the year prior toJune 14,2014,they did not contradict [Mary]
Gilbert’s testimony that she recieved multiple calls between June 14,
2014 and July 26,2014 from the phone number associated with the applicant.")
This too is a prove lie as ray cell phone records prove that there was
no phone calls between those dates.........
Hence two (2) phone calls, fourty-two (42) days apart wherein I left a
message Mary Gilbert infers she did not remember and then my simply stat­
ing my name only before being hung-up on by the plaintiff,is hardly evi­
dence enough to:sustain~a;guilty"verdict in any offense for a case of
Phone Harassment,exspecially inlight that Mary committed prejury many
times throughtout her testimony. Absolutely no evidence substanciated
any other calls than the two (2) described by the Plaintiff and his
wife. Calls eluded to are not backed-up by any evidence or phone call
records•
This proves beyond any reasonable doubt that.the alleged allegations of
Phone Harassment did not occure!
Count No.3

Actuallnnocence

The indictment for Count No.3 read|ri as follows: [Tex. Pen.Code, section
36.06(a)(1)(A) is made up of eight (8) elements: (1) the defendant; (2)
intentionally or knowingly; (3) threatens to harm; (4) another person; :
(5) by an unlawful act; (6) in retaliation for or on account of;(7) the
services of another or the status of another; (8) as a [public servant,
witness or prospective witness or informant").
Sorry the above is the definition from the Texas Penal Code, this is writ­
ten in the indictment it's self: OnoraboutMarch 30,2014 and continuing
through June 13,2014 in Montgomery County,Texas,Michael Geoffrey Peters
hereinstyled Defendant, did then and there intentionally or knowingly
threaten to commit assault against Tracy Allen Gilbert by stating the
following:
1.

Judge Gilbert CORRUPT

2.

You 're not going to get away with it

3.

You (people) willultimately feel what I'm talking about

4.

What would you do if it happened to your son.[This is where Asst.
D.A. Phil Grant adds his own commits,stating] Judge Gilbert has
three children.........

5.

Please help me decide if I should go to prison

6•

I am afraid of what I am thinking now.
4.

8.

Whatever I do next will have serious consequences if I can't
find a better way

9.

My life can nc lcngsr go cn while these thieves get away with this
theft unabated

10.

Do I let these people stealmy son through this doctor's lie
just because the juages werepaidoff.

11.

Do I riskmy life like I did in Iraq?

12.

You wonder why people go nut in this country and allof a sudden go off

13.

You officialhere in Texas give me very little choice what I should
be doing next

14.

I can't sit back and let you stealmy only son.

15.

This man stold everything, he is scum.

Essentially this is the Plaintiff's breakdown, his compilation and
summary of the facts. It's also his fabercation of the physicalevidence
he gave to his friend Asst. D.A • t Phil Grant, stating he wanted to see
if one of these sentences [Crossed the proverbial line].Apparently ac­
cording to the plaintiff's friend, All these sentences crossed that line.
Judge Gilbert has a history of filing charges against ("Lawyer’s") of all
people who either run against him in the elections or file partenity
suits against him. I was a good target for him as I had been to pri­
son twice before, onne when I was eighteen (18) years old and again when
I overextended my own checking account when everyone in the State of
Texas lost their jobs in the Oil Field Crash of 1982*
Two (2) weeks before I am sentenced for alleged retaliation another
inmate named, Michael Roy Castleberry is charged with the same offense
he too has two (2) priors. However he recieved just [seven (7) months
State Jail, while I recieved thirty-five (35) years,showing the real
prejudice of the court at this time.
As stated the juror's werebeing kept ("Dumbfounded") wherein they could be
let into making a false conviction. The trial was closed door,I was
denied my defense exposing his cover-upfor the State's witnesses crimes.
See [Exhibit No.89]. Alsormy^Acquittal,[Exhibit No.88] for Count No.2.
JURY KEPT DUMBFOUNDED
See [Exhibits No. 78, 79 & 79-A] During the jury's deliberations they
don't know how to deliberate the offense in CountNo.3 largely because
the Conspirator's allowed all the YouTube video's I made ofthe State's
witness; Dr. Zoann Eckert Dreyer, who committede the crimes everyone
wants to cover-up.There were One-Hundred and Three(103),I planed to make
one(l) every day until she was brought to justice. I only made four (4)
of the plaintiff, so it's natural the jury was going to be confued when
there are (103) extra......... And that was their plan. It had nothing to :do
5.

r
with Judge Gilbert,other than the fact he covered-uphercrimes and they
all wanted tokeepit a secret • • •
So afterthe jury atehotpizza anddrank cold cokes and watched (107) You­
Tube video for their entertainment,they goto the deliberation room and
then try and figureout what todo. See [Exhibit Nbi78] The Jury asked:
"Could we please have the definition to assault?
They were kept so dumbfounded that they did not ever know the definiotion
for the offense charged
Lookingjust below that question you'll see
Judge MiChalk refuses to answer their question, preferring to leave them
in the dark.
Looking at [Exhibit No.79] the jury struggles with how to ascertain how
to apply an assault to a ("YouTube video") and they ask:
1.

Is the charge on Count No.3 "harm" against Judge Gilbert or "threat"
to assault specifically?

2.

Is threat to assault an extension of harm or is it it's own qualifier?

Aagin Judge MiChalk refuses to answer their question....
i

Finally See [Exhibit N0.79-A] Wherein the jury now wants to know which
are the titles of the four (4) YouTube video's in the indictment? And
again Judge MiChalk would not answer their question.
How could this jury make a reasonable decision with respect tomy guilt or
innocence, without even knowing: (1) Which video they were supposed to be
Or what an "Assault" even was? Logically onemust at least
watching
know the definition of the offense and what video that offense was commited in. The jury had to find me guilty of every element of the offense
Beyond aReasonable Doubt, but it is painfully clear this jury had pleanty
of doubt • • • proving that they were incapable of making aninformed decision
based upon the facts. When I trial is completely one-sided, it's impossible
to know those facts. Had the jury known that the trial court was being
manipulated by a Chain Conspiracy to preventme fromexposingthe Plaintiff's
cover=up of the States witnesses crimes toprotect the billion dollar
Corporations of Baylor and Texas Children's funding Texas Gov.Rick Perry
for United States President, and hence they wanted me to stop calling him
a ("Child Molester") on YouTube Media. See [Exhibit No.135] Also see the
Plaintiff in [Exhibit No.137] Bottom right. See all the evidence I am
publishing proving the States witnesses crimes.
Now See [Exhibit No.l, that is me protesting the Texas Children's Hospita;
telling the public that the State's witness committede crimes that the
State of Texas has been covering-up for the last nine (9) years....
[Exhibit No.2 -3] Show the flyers and billboards I was using,they were hot
and mad, but would never thinkof taking any legal action against me, be­
cause they all know I have the evidence against them. To bring a lawsuit
against be would be tobring tolight their own crimes and cover-ups, so
they plotted together, all of them knowing by my YouTube video's they
were all a target • • • They had to silence me behind the scences, K#ep3ai:low profile, sothey used the plaintiff,who just happened tohave a history
of going after those exposing himto the Media.

6.

i

Me Guiggin vs. Parkings, 569 U.S. 135 L. Ed 2d 1019 (2013) Actual
Innocence serves as a gateway to be heard. Actual Innocence if
proved serves as a gateway through which a petitioner may be heard
whether the impediment is a procedural bar as in Schlup vs. Delo,
513 U.S. 298 of House vs. Bell, 547 U.S. 518 ADEPA Statute of Lim­
itation. To proceed through the Schlup, 513 U.S. 298 (1995) gateway
a petitioner must present a credible claim of actual innicence. This
requires petitioner to support his allegations of constitutional error
with new reliable evidence, See [Exhibits], whether it be exculppatory
scientific , trustworthy eyewitness accounts or critical physical evid­
ence that was not presented at trial.
The evidence clearly shows that I was not allowed to present any eviddence or have any witnesses. I was being railroader and there was not
a thing I could do about it. See [Exhibit No.116] You will see that I
was allowed to bring civil documents. Those are the exhibits you see
here toady that I was denied. Looking at [Exhibits Nos. 105-112] you
can see I asked many times about witnesses and evidence. The trial
judge had told both appointed counsel's; Keith Valigura and Tony Duck­
worth that I was not allowed“to:~haveTmyr-defense exposing-the::plaintiff
for his racketeering crimes, covering-up for the State’s witnesses
crimes.
Looking at [Exhibit No.110] It reads: In these procedings they are
going to stop me telling you the story. There are witnesses for every­
thing. I will tell you that. As this goes on, you will see that the
trial is one-sided. And you will see no witnesses on my side. You will
see that I won't bring out any evidence, that I have in black and white.
It is powerful and strong....] Next See [Exhibit No.112] Note that I
have to give-up any defense and allow my corrupted counsel to sell me
out because without evidence, I had no chance to convience the jury I
was telling the truth in this one-sided trial, so I ("Give up UNDER
PROTEST]... I was denied my Constitutional right to have witnesses.
The Sixth Amendment guarantees every defendant the right to call wit­
nesses in his behalf, but they could not allow me witnesses that would
prove the State's witnesses crimes that they were all covering-up for.
The Supreme Court explains the proper review by the lower courts: The
Carrier Standard is intended to focus the inquirey on Actual Innocene.
In assessing the adequacy of petitioners showing, therefore the district
court is not bound by the rules of admissibility that would govered at
the trial. Instead the emphasis is on Actual Innocence allows the re­
viewing tribunal also to consider the probative force or relavancy of
evidence that was either sxcluded or unavailable at trial. The habeas
court must make a determination concerning the petitioner innocence, in
light of all the evidence, including that alleged to have been illegal­
ly admitted, like the extra (103) YouTube videos, but with due regard
to any unreliability of it, and evidence tenably claimed to have been wrong­
fully excluded. Id. at 327-38, 115 S. Ct. 851 (citation ommitted)
In this circumstance actual innocence does not merely require a showing
that a reasonable doubt exsist in light of the new evidence, but thatnr.
no reasonable juror would have found the defendant guilty. Id. at 329,
115, S. Ct. 851. The Carrier Standard does not require absolute certain­
ty about the petitioners guilt or innocence, rather the Standard is a
probabilistic one that require a petitioner to show that .upon consider­
ation of the new evidence, it's more likely than not no ;jury would find
7.
..j

him guilty beyond a reasonable doubt. The weight of the evidence is not
part of the sufficientcy test. When reviewing the sufficientcy of the
evidence the Supreme Court view all evidence whether circumstancial or
direct in the light most favorable to the goverment, with all reason­
able inferences and credible choices to be made in support of the jury's
verdict. United States vs. Salazar, 958 F. 2d. 1285, 1285, 1290-91 (5th
Cir. 1992). The evidence issufficient to support a conviction if a ra­
tional trier of the fact could have found the essential elements of the
crime beyond a reasonable doubt. United States vs. Faulkner, F. 3d 745,
768 (5th Cir. 1994). This Court has explained that it is concerned only
with the sufficientcy, not the weight of the evidence. United States
____
vs. Garcia, F. 2d 556, 561 (5th Cir. 1993). The due process clause
forbits a state from convicting a person of a crime without proving the
elements of that crime beyond a reasonable doubt.
Regardless of how a state court applies evidence rules, a federal court
has an independant duty to determine whether that application violates
the Constitution.-Jones vs.Cain, 600 F. 3d 527, 536 (5th Cir. 2010), Mr.
Sussman relies heavily on the courts decision in Redman to support his
claim that the state court evidentuary ruling adversarily impacted his
rights under the Confrontation Clause. Once the state has defined the
elements of an offense, the federal constitution imposes constraints upon
the state's authority to convict a person of that offense. It is well
settled that the due process clause of the Fourteenth Amendment protects
the accused against conviction, except upon proof beyond a reasonable
doubt of every fact necessary to constitute the crime forewhich he is
charged. In re Winship, 397 U.S. 358,364, 90 S. Ct. 1068, 1074, 25 L. Ed
2d 368 (1970).
JURY INSTRUCTION
A jury instruction that omits or materially misdescribes an essential
element of the offense as defind by state law relieves the state of
it's obligation to prove facts constituting every element of the of­
fense beyond a reasonable doubt, thereby violating the defendant's
federal due process rights. See; Carella vs. California, 491 U.S. 263
265, 109 S. Ct. 2419, 2420, 105 L. Ed 2d 218 (1999)(per curiam).
INDICTMENT
[A]n indictment must be specific in it's charges and necessary alle­
gations cannot be left to inference. William vs. United States, 265 F.
2d 214, 218 (9th Cir. 1959). Moreover an indictment must do more than
simply repeat the language of a criminal offense. Russell vs. United
States, 369 U.S. 749, 764 (1962). At the same time an indictment should
be read in it's entirety,construed according to common sence and interpeted to include facts which are necessarily implied. United States vs.
Givens, 265 F. 2d 218 (9th Cir. 1959). We review the sufficientcy of the
evidence de nova. United States vs. Rodegues, 360 F. 3d 949, 958 (9th
Cir. 2004) [Decission upholds the indictment] (1554).
DEFENSE WITNESSES
Chamber vs. Mississippi, 410 U.S. 284, 35 L. Ed 2d 297, 93 S. Ct. 1038
(1973), The right of an accused in a criminal trial to due process in
an essential right to a fair oppertunity to defend against the State's
accusations. The right to confront and cross-examine witnesses and to
8.

call witnesses on his own behalf has long been cognized as essential
to due process. Giglio vs. United States, 405 U.S. 150, 92 s. Ct. 763
(1972); Testimony is material when it is resonably likely that it's
admission would affect the judgement of the jury. See Ex Parte Weinstein,
421 S.W. 3d 656, 665 (Tex. Crim. App. 2014).
INEFFECTIVE ASSISTANCE OF COUNSEL
The defense counsel was a part of the Chain Conspiracy and cover-up for
the State's witnesses crimes. That's why he withheld the Additional Phone
Call Evidence. He files for a Motion for a New Trail simply show, he
has no p Ians to su pport his Motion and knows it will be dismissed. See
[Exhibit s No.129-9 jwherein the Ninth Court of Appeals judges states:
("After the jury's verdict, but prior to the punishment phase of the
trial, defense counsel states on record that eariler that morning the
State had indicated to defense counsel that the State had recieved ad­
ditional records in the form of a phone record, which to some degree
seems to contridict the testimony of Mary Gilbert who • • • indicated that
phone calls had been recieved under the • • • cell phone number of Mr. Peters for up to a year prior to this trial.
Now we know already in [Exhibit No.82] That the Prosecutor stated he g
gave those phone records to defense counsel...It further states: This
evidence contridicts the testimony at trial. No phone records were attached to the motion for a new trial. The motion for a new" trial "wasoverruled as a matter of law.
This was ineffective assistance of counsel. See [Exhibit No.180-180-C]
For the Motion for a New Trail. Counsel never impeached either Mary
Gilbert with the evidence of those (Additional Phone Call Records),
nor die he impeach State's witness Dr. Zoann Eckert Dreyer with the
evidence of her crimes.
Counsel also withheld first counsel,Keith Valigura's Private Investiga­
tor's Report, because it concerned only with the investigation of the
Corporations employee's or hospital staff, this was before the cover-up
was undertaken, but Mr. Valigura later told me. Judge MiChalk refused
to allow my defense » • • See [Exhibit NO.90-A]• For Court Order. Duckworth
was appointed on or before January 12, 2015. See [Exhibit No.90]. There
was some internet redderick I made about Cop Killer's to research what
made video'sgo viral and because of it's grusome nature,they had it
admitted into evidence. See [Exhibt No.94] Wherein Counsel states that
is was,("Well, because that's a very violent statement").In [Exhibit
No.93 & 95] You'll see that I ask that is be suppressed, but my counsel
overrules me and stated: ("And I am asking the Court hot tolet it be
admitted until we have had discussion about this particular statement].
[It's in the Motion in Limine which I will provide to Mr.Peters, if he
chooses to file it]•
I had just asked him to file it • • • • There was nothing to discuss ♦ • • And
we never discussed it at all, so it was allowed into evidence,that proves
ineffective assistance of counsel.
See [Exhibit NO.150A-150E] On page NO.150A Defense Counsel tellswhy
allmy defense witnesses would be no good. He mentions; Nurse Robin Haidacher, Jacqulyn Okeke,and Judge James Douglas Squire. In the next segment you'll see why these witness he states
SSnV^hav^inHehad to prevent them from testifying as their testimony would have in
9.

fluenced the verdict. The jury would have known that there was a coverup and hence alterior motive, had my witnesses testified. They would have
known the State's witness; Dr. Zoann Eckert Dreyer had committed crimes
that made both Baylor and Texas Children's Corporations liable to a multi­
million dollar lawsuit they were all covering-up for. See also [Exhibit
NO.150E] Wherein Defense Counsel refuses to produce the Additional Phone
Call Evidence again. This is the third (3rd) time hes refused to produce
it. [1st] At the trial when the prosecutor stated he had it. [2nd] He
could have asked the court for it at the trial when Judge Michalk stated
she'd allow it if it was illicited [Exhibit No.83], [3rd] He refused to
submit it to support his Motion for a New trial and [4th] Here in [Exhinit no*150E]. This proves that Defense Counsel was not just ineffective
assistance of counsel, but also a member of this Chain Conspiracy to
cover-up the State's witnesses crimes, wherein Gov. Rick Perry and the
Plaintiff would not be implicated.
Counsel also would not subpoena my defense witnesses,he refused to sub­
mit my defense and defense evidence herein, he refused me all discovery,
and allowed the judge to make all the Jury Selections; See [Exhibits No.
01-92B & 96A-96D] You will see that the State and the trial judge made
all the selections to rig the trial and fix the jury.
UNFAIR TRIBUNAL
See [Exhibit No.101] Wherein the trial judge stated: ("And it doesn't
matter that he's a judge?") proving she was bias towards her friend and
co-worker, the plaintiff.
Looking at [Exhibits No.73,73A & 100] It'seasy to see that she'd recused
herself in another one of the plaintiff’s trials, but refused todo so in
mine, proving that she had an alterior motive to control and fix the out
come of my trail. She should have recused herself in my trial just was
she'd done before because it was uneithical for her to preside over her
friend and co-workers trial • • • See [Exhibit No.74]It show that on 10/14/14
she granted a Motion to Quash Keith Valigura's file.She did this because
he had the PrivateUnvestigator!-sTReport who investigated those Corporate
employee’s who’d prove Dr. Dreyer's crimes and the Corporations liabil­
ities for those crimes. It waspart of their cover-up • • •
See [Exhibit No.141] Look at this visous way inwhich Judge MiChalk denies
my Motion for a Change of Venue. She literally attacks the page denying
it. Also[Exhibits NO.102-102G, 103-4 & 180(d) Wherein denies everything!
I'm not allowed bail. Change of Venue or a Continuance toobtain those
elusive phone records. She withholds the ("Brady Evidence")knowing that
those phone records she stated she'd viewed over the weekend were blank.
She'd even lied about that, as I saw her asking the Prosecutor to let
her see them beofre the proceedings got started and they wereblank • • ♦
Hurles vs. Ryan, 706 F. 3d 1021 (CA 9 2013) "The Due Process Clause of
the Fourteenth Amendment establishes a constitutional floor, not a uni­
form standard for judicial bias claim. Bracy vs. Gramley, 520 U.S. 899,
904, 117 S. Ct. 1793, 138 L. Ed 2d 97 (1997) While most claims of judicialbias are resolved by common law, statute, or the professional stan­
dards of the bench and bar, the floor established by the Due Process
Clause clearly requires a "fair trial in a fair tribunal, before a judge
with no actual bias against the defendant or interest in the outcome of
his particular case. Id. at 904-05, 117 S. Ct 1793 (quoting Withrow v.
Larkin, 421 U.S. 35, 46, 95 S. Ct.1456, 43 L. Ed.2d 712 (1975). The Costitution requires refusal where the probability of actual bias on the.part
the judge or decision maker is too hign to be constitutionally tol
10.

erable. Withrow, 421 U.S. at 47, 95 S.Ct. 1456. Hurles need not prove
actual bias to establish a due process violation, just an intolable risk
of bias. Aetna Life Ins. Co. vs. Lavoie, 475 U.S. 813, 825, 106 S. Ct.
1580, 89 L.Ed.2d 823 (1986): See Caperton,556 U.S. at 883, 129 S. Ct.
2252. (n[T]he Due Process Clause has been implimented by objective
standards that do not require proof of actual bias."). Thus we must ask
whether under a realistic apprasial of psychological tendencies and
human weakness, the [Judge's] interest poses such a risk of actual bias
or prejudgement that the pratice must be forbidden if the guarantee of
due process is to be adequately implimented. Caperton, 556 U.S. at 88384, 129 S. Ct. 2252.
CORPORATE CRIMES
It is imparative that it's known the the plaintiff knew about the States
witnesses crimes. Not onlu was he provided the evidence, but [Exhibit
No.405-405(d) we presented to him in Motion. See the Cause No. 12-08-09
259, was my Annulment before the plaintiff. During his trial testimony
he explains he knew about the Corporate attorneys,he had meetings with
them severaltimes and was even given those ("photos") Seen in [Exhibit
No.4-5]
[Exhibit No.152] Shows where the plaintiff grants an orderat the Ann­
ulment Quashing the same defense witnesses that my defense counsel had
at the trial for retaliation,proving they were being suppressed to
cover-up the Corporate crimes and liabilities. Kimberly Jodan, Jacqulyn
Okeke, RN, Robin Haidacher....all key witnesses... See [Exhibit No.
153-A] Showing where the Corporate attorneys wanted to quash my witness­
es. Also see [Exhibits No.7-8].
So on September 17, 2014 I removed my son from his school and went
directly to Texas Children's hospital topick-up his medications. The
reason why I picked him up was becasue he was suffering under his mot­
hers case and was hospitalized. [Exhibit No.13]. [Exhibit No.39]Proves that I picked-up 'my'son?:s rmedications-'that-day. When our son, Dal­
ton did not return home or after the school informed my wife I'd taken
him, she called Dr. Dreyer and told her I’d kidknapped him, not under­
standing American laws as she was from El Salvadore. Even though Dr.
Dreyer had my phone number and could have easily seen on any computer
that I'd picked-up my son's medications, she choose to call Child
Protective Services [CPS] instead and tells them that I am ("medically
neglecting my son because I don’t have his critical cancer medications.
I get a call from [CPS]. See [Exhibit No.21], They come to the house
with a Sheriff and talk to me and my son,they see I have all his medic­
ations and tell me to go to the hospital and show them. Thats when I
see RN, Haidacher and Socialworker, Jacqulyn Okeke. [Exhibits No.14,15,
17 & 25] All prove that they had positive things to say and that Dr.
Dreyer was lying and I had allhis medications • • •
There was a problem though and that was that one bottle of his pills
was labeled only as ["Give as Directed Only"], this confused me so I
had to call the hospital and find out how it was directed. When I did
this caused more problems, as see in [Exhibit No.16] Wherein I am now
being accused again, this time that I'm extremely confused how to admin­
ister my son's medications, once again I am forced to drive back to Ho­
uston, Texas to the hospital and prove I am not confused.•.See [Exhibits
No.17 & 25 again]. Both Baylor Okeke and haidacher confirm this and state
("this is a custody issue and she will not call [CPS]")[Exhibnit No.20].
11.

Now my wife has immergration problems because she'd lied on her applic­
ation for political asylum, so her plan is to get her family Lawyer to
• assist her,by signing over proceeds from the family home I was building,
etc. etc. Plus she needs Dalton, our son for his Social Security benefits
he recieves for his cancer to survive, so between her and her Lawyer, Ms
Pitre the plan was to make me out to be abusive, that way by law,.Eva
my wife can get the Green Card she wants and our son... See [Exhibit No.
11] Ms. Pitre tells Eva to beat her leg (upper thigh) and produce a
bruise. She then takes photo's with her camera and brings them to the
Texas Children’s Hospital [TCH] to show another Socialworker, named Mital
K. Brambhatt, who's worked with Dr, Dreyer in the past concerning other
unruley fathers who seek child custody. See [Exhibit No.10].
The photo's were then given to Mital. My wife had signed consent forms
toallow Mital to talk directly to Ms.Pitre, so Dr.Dreyer, Mital and
Ms.Pitre are all in the know and talking about me, and my alleged behavior
issues concerning the photo's. See [Exhibits No.24,24A & 37].
[NOTE] No.37, bottom line stating: SW also informed patient's physicain
about these concerns and contacting attorney. This is an important
line proving the crimes. Also see [Exhibit No.27-29] Concerning the
possibility of a Green Card.as well as No. 30-36] The [911] calls I
made every time Eva came to the house to try and remove our son, provig
[No violance or threats of violance ever occured], that's why this plan
did not work. The hospital thought better about this too at the time
and had Mital write an [Affidavit] explaining she had no knowledge of.
the authenticity of those photo's... See [Exhibit No.38]
Now that is three (3) attemptsthat this group made against me to take
my son from me and all failed!
So they make yet another plot, this time Dr.Dreyer fabercates a lie
using the [TCH] Medical Records as her tool, as well as her position
and credibility to impose her own agenda to steal himaway fromme.
CRIMES
Hence onOctober 24,2012 Dalton has another appointment at the [TCH].
An Organization called the "Sunshine Kids" gave Dalton and I tickets
to a Special Houston Astro's Baseball Team Event that same day,so
the day before I called and asked to the earilest appointment and
was give an [8:15 a.m.] appointment. We arrive early and at exactly
[8:00 a.m.] the nurse arrives on the 11th Floor where we are waiting
and has Dalton take a fingerprick for a
bllod sample. This sample
gose to the [TCH] Lab. Once it’s finished it will be accessible to
Dr. Dreyer, who always brings it with her to our appointment to make
notes on and it’s a reciept, for that appomtmeny. See [Exhibits No.
46,47 & 48] There trial transcritps taken during the trial for retalia­
tion. Dr. Dreyer confirms this and in No.47-48 denies falsifying the
[TCH] Medical Records, she did this also at the Annulment, but I'm not
allowed those transcripts to cover-up thier crimes...
Now on the day of that appointment Dalton and I wait for [8:15 a.m*]
but when it comes around nobody shows-up, sowe patiently wait. While
we are- waiting, Mitaland Dr. Dreyer are in the back having a meeting.
Mital shows Dr. Dreyer the photo's Eva gave her and it was at that
meeting Dr. Dreyer12.

Dreyer and Mitalfabercated the Texas Children's hospital's Medical
Records, See [Exhibit No.45] Dr.Dreyer states three (3) times in this
smallparagraph that I ran out of my son's [SXT] Antibiotic medicine.
Looking at the top left hand Conner of all these medical records, you'll
see the faxcile time and date. It was November 15,2012 wherein Dr. Dreyer
or her accomplice, MitalK. Brahmbatt faxed this fabercated physical
evidence to Ms. Pitre to be used and admited into evidence proving I
medically neglectedmy son,afterthree (3) prior failed attempts. See
[Exhibit No.19] Where the Montgomery County Child Protection Services
("Rule-Out") Dr. Dreyer's false allogations...
A typical [TCH] LabResult or Blood Count as seen in [Exhibit No.47]
Wherein Dr. Dreyer stated: ('.'But we always print out blood counts to
give to the families, so we can go through them and make notes for the
families. See a t ypicalresult [ExhibitNo.49] And compare it to the
Blooa count for t ne day in question, [Exhibit No.50] ]N0TE] Dr. Dreyer
makes notes telling me to pick-up medicines I've already picked-up • • •
Once I complained to the [TCH] Compliance Director about Dr. Dreyer
fabercating my son's medicalrecord. See [Exhibit No.51-52] It states
that Dr. Dreyer is telling her that "It wasmethat told her I’d ran out
of my son's [SXT] medicine on October 24, 2012. We can prove this to
be a lie by several diffrent means.
I. Is the timeline of the events that took place that day. Looking back
at [Exhibit No.24] the bottomiline,Mitalis stating that she?s already talked to Dr. Dreyer. The time on her report is [10:44 a.m.]
The Blood count for that day is times at; [9:12 a.m.] and Dr. Dreyer
fabercated medicalrecords is times at [8:45 a.m.] My appt.was for
[8:15a.m.] which was a no show because Dr. Dreyer and Mital were busy
fabercating the medical records, she later entered into the Records
System at [8:45 a.m.] Our appointment had tobe after she fabercated
the MedicalRecord atthat time and also after the Lab completed the
Blood count at [9:12 a.m.] giving Mitalenough time toget back to
her office andwrite that she'd already informed Dr.Dreyer about the
faked photo's my wife gave her. Them the morning of the Child Cus­
tody Hearing they were faxed to Ms.Pitre, who'd been in prior com­
munications with them in this plot. Wherein they were admited and
did decieve the plaintiff's Associate judge,Judge Jennifer Robin,
who thereafter orderedme to give my son to my wife and I wasforced
into paying for Access Builds Children [ABC] wherein I was also or­
dered to pay for my wife to bring him there if I everwanted to see
him again.
2. Also the Pharmacy reciepts clearly prove that I never ran out of the
[SXT] Antibiotics, hence would have no reason to tell Dr. Dreyer I
had. [Exhibit No.40] explains Dalton takes the [SXT] two (2) times
per day on Friday, Saturday and Sundays. Thats six (6) per week and
approx.twenty-four (24) pre month. [Exhibit No.41] shows the three
(3) times I picked=-up Dalton's [SXT], starting 9/17/12 when I took
him from school. I picked-up first(30) pills, then (24) and again
(30) on 11/5/12. I returned my son on ll/15/12proving I never ran
out •
3. Is the Storeyline of events.After three (3) other failed attempts
all failing they resorted to crime. [Exhibit Nop.42-3) Show wherein
Dr. Dreyer is stating I amgiving Dalton his medication and Dalton
£srtj|7.3.£.i[\g-her..he is taking them. but this wason 9/26/12 when she
13.

was still counting on her lies to [CPS] to stealmy son away fromme
This is why I was not allowed my defense, or witnesses. Once the
plaintiff did all the dirty workhe could on me he goseon vacation
tobe with 'his own son for Sprin Break and appoints Judge James Dou­
glas Squire to take over. Judge Squire has hisown agenda and only
wanted to appoint his realtofriend of (30) years, Nancy Rollins to
replace my own realtor from Century 21. Nance worked for Coldwell
Bankers Reality. More cullusion • t however because he did not share the
same interest with the plaintiff, he did not mind allowing me to subm­
it just allittle evidence because he was;himself curious. When I pre­
sented my evidence in part the Jury granted me ("Join Child Custody")
but by that time it was too late to getManaging Conservatorship • • •
[Exhibits No.54-56] Show Judge James D. Squire striking-out Dr. Dreyers
medical neglect allegations typed in by my wifes Lawyer's who made up
the Final Divorce Decree. Hence we have both [CPS]and this judge ruling
itout also.
WITNESSES
Contrarry to [Exhibits no.7,8 & 150A-D] Wherein these Corporate attorn­
ey's and my defense counsel all lie about my witnesses negatively im­
pacting my defense and other reasons, I have proved that they were all
perfect professional:witnesses."judge Squire, RN,Haidacher, Socialworker, Okeke both from (Baylor) and Any Loggins the Montgomery County [CPS]
Caseworker and her Supervisor, Pamela Thomas as well a John Colderron,
the other father in [Exhibit No.10] were the States professional's to
ascertain whether or not I had medically neglected my son and all proved
that I did not and that Dr. Zoann Eckert Dreyer was lying and along with
her accomplice, MitalK. Brahmbatt fabercated the physical evidence to
lie to a United states District Court Judge in an official courtproceed­
ing. Their crimes of:
1.Medical Records Fraud.
2. Aggrevated Perjury
3. Physical Evidence Fabercation
4. Criminal Conspiracy
5. Fraud in lying to [CPS] in an official::-lnvestigation
6. False Imprisonment
7. Collusion
8. Racketeering
All this evidence wasbefore every judge in Texas and Fifth Circuit Judge
Gregg Costa from Houston, Texas wherein the Corporations reside. Allinvolved in a Republican Party Alliance to cover-up Gov. Rick Perry's in­
volvement, as he appointed at his discretion Dr. Irvin Zethler as Dire­
ctor of the Texas Medical Board, who also covered-up these Corporate
crimes,because they were funding his political career.
Lunberrv vs. Hornbeck, 605 F. 3d 754 (Ca9 2010), Due Process includes
a rights to a meaningful opportnity to present a complete defense.
Washington vs. State of Texas, 388 U.S. 14, 18 L.Ed2d 1029, 87 S. Ct.
1920 (1967).
^ho-righ-fc
an accused to have compulsory proce
witnesses in his favor stands on no lesser rooting ifla£0ih!b£tM"g
14.

i

Amendmant rights that we have previously held applicable to the state.
This Court had occasion Til re Oliver, 333 U.S. 257, 68 S. Ct. 499 92
L.Ed. 682 (1948) to describe what it regarded as the most basic ingreients of due process of the law. The right to offer the testimony of
witnesses,and to compel their attendance if necessary is in plan terms
the right to present a defense, the right to present the defendant's
version of the facts as well as the prosecutions to the jury so it mav
decide where the truth lies. Just as the accused has the right to confront the prosecutions's witnesses for the purpose of challenging their
testimony, he has the .right to present his own witnesses to establish
a defense. [The judgement of conviction must.be reversed].
Defense counselwas ineffective assistance of counsel for not putting on
my defense and callingmy defense witnesses provingthe States witnesse
crimes. They were all involved in a Statewide Republican Party coverup to protect Gov. Rick Perry during his bid to become United States
President. My YouTube video's calling him a ".'Child Molester"were distroying his chance to be elected and the Republican Party who had inv­
ested millions of dollars was mad, so they joined forces to protect one
of their largest investor's and funders. The Texas Medical Board and all
Texas Courts covered-up State Racketeering crimes and Collusion.I was
just a two (2)time X-Con to them, but inreality I have been nothing but
a victum of the State of Texas allmy life.
■ CLOSURE:OF~THE 7TRIAL
Brown vs. Andrews 180. F.. 3d 403 (CA 2 1999), Also See Waller vs. Geor£ia, 467 U.S. 39, 48 104 S.'Ct. 2210 (1984), the Supreme Court stated
that closure of a criminal proceeding to the public was only justified
if the followingfactors were meet: [1] the party seeking to close the
hearing must advance an overriding interest that is likely to be pre­
judiced, [2] the closure most be no broader than necessary to protect
that interest, [3] the trial court must consider resonable alternatives
to the closing the proceedings, and [4] [the court] must make findings
adequate to support the closure. [Writ Granted], The trial was kept
closed to ensure that nobody else knew what they were dojng,it was to
ensure they were not caught railroadingme into prison to silence my
freedom of speech exposing them to State Racketeering and Collusion
crimes. Defense counsel and client were at a point of irreconcilabily.
I had fired him five (5) times before the trial and again the morning
of the trial. See [Exhibit No.106] The : judge”sfcated: ("He’s been to the
jail Friday and Saturady. and I said "And I fired him both days, that is
not enough time to get everybody subpoenaed that I wave to subpoena • • •
THE SENTENCES
The sentences that Judge Gilbert juxtaposed together were nothing more
that I knew he was corrupted.I saw him at the Annulment talking to the
Corporate attorney's before he started coveing-up for them.He's a Baylor
graduate himself.He covered-up those crimes and I was smart enough to
know if I went against a corruprt judge with my past, he nail me and he
did, but I could not as a father simply give-up on my only son, I had
no choice but tostand-upto them, sothese sentences clearly reflect that
knowledge. Please help me decide if I should go to prison; I'm afraid
of what I am thinking now; Whatever I do next I'm sure will nave sorrtfs
1.5.

«

11. He refused to object to the denial of a Chande of Vence.
12. He refused to object when the prosecutor was leading Mary Gilbert
into afirming the elements for phone harassment.
The afforesaid should prove that counsel met Stricklands First prong.
Second the defendant must show that the deficient performance prejudi­
ced the defense. This requires showing that counsel's errors were so
serious as to deprive the defendant of a fair trial, a trial whose
result is reliable.
The fact that I have proved that I had a dense that was greater than
the defense usedie ("Freedom of Speech") and had supporting evidence
and witnesses to corobborate that defense proving the State's witnesses
crimes and the lies of Mary Gilbert, and that Judge Gilbert and Dr.
Dreyer both had histories of making false allegations against others.
Had the jury known of the State's cover-ups and the state's witnesses
lies and crimes and that I did not meet the elements for either offen,
the result of the trial would have been substancially diffrent and a
not not guilty would have resulted for both remaining charges. Counsel
has meet both prongs of the Strickland test and a reversal of the con­
viction should be granted in this case.
U.S. Ex Rel. McCall v. O'Grady,908 F. 2d 170 (CA 7 1990)lt was found
that defense counsel has not represented the defendant to the satisfa­
ction of the Sixth Amendment when counsel fails to pursue an impeaching
cross-examination or present adiditional evidence that would in all
reasonable probility cast a reasonable doubt on the testimony of the
goverments main witness.McCall, 714 F. Supp. at 379. [Remand to the
District court for an evidentiary hearing under Strickland].
JURY INSTRUCTION DURING DELIBERATIONS .
When a jury explicitly request a supplimental instruction, a trial
court must take great care to ensure that any supplimental instructions
are accurate [and] clear. United States v. Jenkins-Watts,574 F.3d 940
(8th Cir. 2009).
Instead the trial judge refused to even give the jury any instructioon
because their plan was to keep them all in the dark throughout the pro­
ceedings, keep the tial one-sided and then once their in deliberations
refuse toanswer any of their questions in hopes that they’ll make a
wrongful conviction and be able tosilence my freedom of speech exposing
Gov. RickPerry and the plaintiff ect. The plaintiff was instramanrtal
in that he was a judge and had his own courthouse and friends,the denial
of a Change of venue. Bail was all partof the plan to prevent any fur­
ther exposure and aid Gov.Rick Perry at all cost to become the United
States President.

17.

I

INEFFECTIVE ASSISTANCE OF COUNSEL CONTINUED
Gomez vs. Beto,462 F.2d 596, 597 (5th Cir. 1972) ("When a defense
counsel fails to investigate his clients only possible defense, although
requested to do so by him and fails to subpoena witnesses in sup­
port of the defense, it can hardly be said that the defendant has had
the effective assistance of counsel").
This Fifth Circuit Case should have taken presidence and been honored
by the Fifth Circuit, however Justice Gregg Costa, from Houston, Texas
where he has an office, honors only Houston, Texas Corporations
willing to pay out back-handed bribes. These Corporations have been
financing their cover-up starting with my Annulment when they paid
out over One'Million dollars or brainsurgeries, attorney's, provate
investigator's,courriers and photographer's, as well as bring expert
witnesses to testify about my wife's recovery, to which she have never
recovered.
Boyd vs, Estelle,661 F.2d 388, 390 (5th Cir. 1981)("Complaints of uncalled witnesses are not favorable in federal habeas review"). Again
ignored...
Soffar vs. Dreke,368 F.3d 441, 473-74 (5th Cir. 2004)("trial counsel
was ineffective when he failed to interview exculpatory witnesses").
STANDARDS
Bryant vs. Scott, 28 F.3d 1411, 1419 (5th Cir. 1994)("duty to investi­
gate includes obligation to investigate all witnesses who may have
information concerning his or her client's guilt or innocence").
Nealy vs. Cabana, 764 F. 2d 1173, 1177 (5th Cir. 1985)("at a momimum
counsel has the duty to interview potential witnesses and to make an
independant investigation of the facts and circumstances of the case").
Hardin vs. Estelle, 484 F. 2d 944 (5th Cir. 1973)("this court held
that relief should be granted for denial of compulsory process of
witnesses"). Again this did not apply tome, due to the cover-ups • • •
Ex Parte Wingfield, 162 Tex. Crim. 112 282 S.W. 2d 219 (1955); Colbroth vs. Wainwright, 466 F2 1193 (5th Cir. 1972)("the only exception
is if you can draw that there was no evidence on the crucial "element"
of the offense forewhich you were convicted"). It's obvious that the
element of (anonymously) wasdeleted from Count No.(l), hence the jury
was unable to even consider it during their deliberation • • •
CONSTITUTIONAL LAW
Allpersons born or naturalized in the United States are subject to the
jurisdiction thereof, are citizen's of the Unnited States wjerein they
reside. No state shall make or enforce any law which shall abridge the
privileges or immunites of citizens of the United States, nor shall any
atate deprive any person of life, liberty or property without due pro­
cess of the law, nor deny to any person within it's jurisdiction the
equal protections of the laws.

18.

United States v. Shabban, 612 F. 3d 693, 698 (Q.C. 2010)("case remandea on ineffective assistance issue where trial counsel failed to ade­
quately investigate and call witnesses").
United States v.Williamson 185 F. 3d 458, 463-64 (5th Cir.)("counsel's failure tocite directly controlling precedent was ineffective
assistance")•
United States v. Samaniego, 532 Fed. Appx. 531 (5th Cir, 2013)("trial
counsel was ineffective when he failed to file a motion to suppress
defendant's confession).
United States v. Tucker,-716 F. 2d 576, 585-87 (9th Cir. 1983)("coun­
sel's failure to impeach witnesses with prior inconsistant statements
was ineffective assistance"). Counsel knew of Dr.Dreyer's crimes as he
was given all the evidence, as well he heard Mary Gilbert lie on the
witness stand,yet the only person to question her was the prosecutor...
INEFFECTIVE APPEALATE COUNSEL
United States v. Youla, 241 F. 3d 296, 300 (3rd Cir. 2001)("counsel
who files an Anders brief must satisfy the court that he has throughly
examined the record in search of appealable issues and explain why
the issues are frivolous.
Appealte counsel citing ground as ("Unassigned error") asking the judge
to determine whether their were issues of appeal was ineffective assi­
stance" ) •
PRAYER
It is the prayer of the defendant, that after serving seven (7) years
in prison for crimes he did not commit and being denied all his consti­
tutional rights by Conspirator’s in a Chain'Conspiracy to have me in­
tentionally wrongfully imprisoned to silece me from exposing state
collusion and racketeering::cfimes:ahd'Corporate and for the irrepairable damage done to the husband / wife relationship and the father / son
relationship for those years...It is the extreme desire that the Sup­
reme Court make a clear and concise judgment inwhich future civil actions
can rely upon, not omitting the State's involvement is conspiracy and
racketeering crimes and collusion being the reason for this false im­
prisonment •
RELIEF
The defendant ask for acquittal's to both Count No. (1) and (3) of the
indictment and any other relief that this Court allows, I would seek
federal protections from further state retaliations and a federal inves­
tigation into State Racketeering and Collusion crimes and False Imprison­
ment. As well defendant asked to be put into the Federal Witness Pro­
tection Program with a full identifacation change and relocation to
another state immediately upon release.

19.

I

CONCLUSION
American citizen's should not be intentionally wrongfully imprison­
ed to stop the people for exposing State Racketeering and Collusion
crimes.

The petition for a writ of certiorari should be granted.

Respectfully submitted,

7

Date:

August 4, 2021

